IN THE

~upreme ~ourt of

tbe Wniteb ~tates

No.20-905
INDEPENDENT SCHOOL DISTRICT N 0. 283,
Petitioner,
v.
E.M.D.H. EX REL. L.H. AND S.D.,
Respondent.

On Petition for a Writ of Certiorari to the
U.S. Court of Appeals for the Eighth Circuit
CERTIFICATE OF SERVICE
I hereby certify that on this 13th day of January, 2021, I caused a copy of the Brief
of National School Boards Association, Minnesota School Boards Association, Arkansas
School Boards Association, Associated School Boards of South Dakota, Iowa Association
of School Boards, Missouri School Boards' Association, Nebraska Association of School
Boards, North Dakota School Boards Association, National Association of Elementary
School Principals, National Association of Secondary School Principals As Amici Curiae
in Support of Petitioner to be served on the counsel of record as follows:
By email to:
Neal Kumar Katyal
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, D.C. 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counselfor Petitioner

Amy Jane Goetz
SCHOOL LAW CENTER
452 Selby Ave., Suite 2E
Saint Paul, MN 55101
(651) 222-6288
agoetz@schoollawcenter.com
Counsel for Respondent

The parties have consented to electronic service. I hereby certify that all parties
required to be served have been served. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on January 13, 2021.

~~ M.UJc_

~ M.WAtKER

Counsel of Record
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
lwalker@mololamken.com
Counsel for Amici Curiae

